fl

2311 Douglas Street CC : E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

  

Est. 1923
1-800-225-6964 Web Site
(402) 1 www.cocklelegalbriefs.com
Fax: (402)

No. 20-1760

ILIFE TECHNOLOGIES, INC.,
Petitioner,
v.
NINTENDO OF AMERICA INC..
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF IN OPPOSITION and
PATENT APPENDIX in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 5370 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chk
1 RENEE J. GOSS 9. OQudrae- f

Affiant

 

 

My Comm. Exp. September 5, 2023

Notary Public
41253
